No._-__
INTHE

6uprtmt Court of tbt ltnittb 6tatts
ESTATE OF ESTHER KLIEMAN, BY AND THROUGH
ITS ADMINISTRATOR, AARON KESNER, et al.,
Petitioners,
V.

PALESTINIAN AUTHORITY, AKA PALESTINIAN
INTERIM SELF-GOVERNMENT AUTHORITY AND
PALESTINIAN LIBERATION ORGANIZATION,
ALSO KNOWN AS PLO,
Respondents.
ON PETITION FOR A WRIT OF CERTIORARI TO THE
UNITED STATES COURT OF APPEALS FOR THE
DISTRICT OF COLUMBIA CIRCUIT

SUPPLEMENTAL BRIEF OF RESPONDENTS

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.l(h), I certify that the document contains
650 words, excluding the parts of the document that are exempted by Supreme Court Rule
33.l(d).
I declare under penalty of perjury that the foregoing is true and correct.

Executed on April 22, 2020.

Wilson-Epes Printing Co., Inc.

